WILMERHALE

May 28, 2021 Seth P. Waxman
+1 202 683 6800 (t)
Hon. Scott S. Harris +1 202 663 6363 (f)
5 wilmerhale.«
Supreme Court of the United States a com
One First Street NE

Washington, D.C. 20543

Re: AbbVie, Inc., et al. v. Federal Trade Commission, No. 20-1293
Dear Mr. Harris,

lam counsel of record for petitioners AbbVie Inc., Abbott Laboratories, and Unimed
Pharmaceuticals LLC in the above-captioned case. The petition for a writ of certiorari was filed
on March 18, 2021, and the brief in opposition was filed on May 19, 2021. Under this Court’s
Rule 15.5, I write on behalf of all petitioners to waive the 14-day waiting period. I understand
that upon submission of this waiver, the petition and brief in opposition will be distributed to the
Court on June 1, 2021, for its consideration at the Court’s June 17 Conference. We will submit a
reply to the brief in opposition as soon as possible.

Respectfully submitted,
Seth P. Waxman

ce: Elizabeth B. Prelogar, Counsel for Respondent (by electronic mail); all counsel of record

Wilmer Cutler Pickering Hale and Dorr up, 1875 Pennsylvania Avenue NW, Washington, DC 20006
Beijing Berlin Boston Brussels Denver Frankfurt London Los Angeles New York Palo Alto San Francisco Washington
